                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

    Case Number: A04100065
                                                                                    11          Page 1 of 1
                                                                                                                 11
I
         We were informed' of a universit# investigation into allegations that travel funds from an NSF
         award3were used to inappropriately cover the costs of personal trips for three subject^.^ When
        'we inquired, the university said it was investigating allegations regarding:

               1) Improper charges to an NSF award5for a personal trip by subject 1 and subject 3,
               2) Improper charging by subject 1 and 2 to an award from another federal agency6and
                  Subject 1's NSF award for a professional trip unrelated to the awards,
               3) Improper possession of student course evaluations by subject 1,
               4) Failure of subject 1 to reveal a personal relationship with subject 2 while participating in
                  the hiring decision for Subject 2, and
               5) Subject 2's travel to another city was improperly charged to another NSF award.7

         We concluded that allegations 3 and 4 were not within NSF jurisdiction and did not pursue them
         further. With regard to the remaining allegations, the university credited the NSF awards for the
         inappropriately charged t r a ~ e l .Each
                                               ~ subject received a letter of reprimand and was required to
         reimburse the university for the inappropriate travel charges. In addition, all three are required to
         review the relevant university procedures and, for 1 year, have all travel for reviewed with a
         university administrator.

         We also learned that the relationship between subject 1 and the CO-PI~ on her award had
         deteriorated to the point that the co-PI resigned fiom her NSF award. The university continued
         to pay the co-PI from the NSF award and ultimately returned those funds to the award." The
         University nominated and NSF approved subject 2 as the replacement co-PI. The university
         actions have resolved the issues related to the NSF awards and this case is closed.




          ' See footnote 5.

          10




NSF OIG Form 2 (1 1/02)
